/

APPENDIX^A-1

j

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

, Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
June 23, 2020
Before
DIANE P. WOOD, Chief Judge
JOEL M. FLAUM, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 20-2026

IN RE:
LARRY E. STARKS, JR.,
Petitioner

Petition for Writ of Mandamus
District Court No: 3:09-cr-30070-SEM-TSH-l
District Judge Sue E. Myerscough
The following are before the court:
1. PETITION FOR WRIT OF MANDAMUS, filed on June 15, 2020, by the pro se petitioner.
2. MOTION TO PROCEED ON APPEAL IN FORMA PAUPERIS, filed on June 15, 2020, by
the pro se petitioner.
IT IS ORDERED that the petition for a writ of mandamus is DENIED. IT IS FURTHER
ORDERED that the motion to proceed in forma pauperis is DENIED.

form name: c7_Order_3J(form ID: 177)

I

APPENDIX :A-2

:

IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT.
LARRY E. STARKS JR • I
PETITIONER,

MANDAMUS NO.
DISTRICT COURT NO. 09-30070-001

VS.
PETITION FOR WRIT OF MANDAMUS PURSUANT TO
28 U.S.C.S § 1651
UNITED STATES OF AMERICA,
RESPONDENT.
Comes Now, the Petitioner, Larry E. Starks Jr. as a pro-se litigant and moves this Honorable
Court to consider his petition for Writ of Mandamus pursuant to 28 U.S.C.S § 1651, requesting
this Court to direct the United States District Court for the Central District of Illinois
to vacate its original sentencing order and judgement imposing the Career Offender Enhance­
ment. Petitioner.seeks to have the order and judgment vacated on the grounds that the Sentencinj
Commission exceeded its scope of authority by modifying 4B1.2(b), " the definition of what
offenses constitute a controlled substance offense," causing a "Usurpation of Power". Which
makes the Petitioner’s sentenced imposed with the Career Offender Enhancement unlawful and
in direct violation of 18 U.S.C.S § 3553 "Imposition of Sentence" (a)(4)(A)(i) and (5)(A).
. Petitioner states in support thereof as follows:
DISCUSSION
On July 23rd, 2010, Petitioner was sentenced to the Career Offender Enhancement, and recieved
234 months to be served with the Bureau of Prisons. The sentencing Court invoked the Career
Offender Enhancement on the basis that his instant offense for attempted manufacture of
methamphetamine qualified as a Controlled Substance Offense under § 4B1.2(b); Which means:
" An offense under Federal or State Law, punishable by imprisonment for a term exceeding one
year, that prohibits the manufacture, import, export, distribution, or dispensing of a Con­
trolled Substance (or counterfeit substance) or the possession of a Controlled Substance
(or counterfeit substance) with Intent to manufacture, import, export, distribute, or dispense.
The Sentencing Commission Commentary to § 4Bl.2(b) states that a Controlled Substance Offense
" includes the offenses of aiding and abetting, conspiracy, and attempting to commit such
offenses." In United States v. Havis, Appeal No: 17-5772 the decision from the United States

m

Court of Appeal’s for the Sixth Circuit, revealed to the Petitioner that his instant offense
for attempted manufacture of methamphetamine did not qualify as a Controlled Substance Offense;
and was not suppose to be used to invoke his Career Offender Enhancement. Further, the decision
revealed that the Sentencing Commission exceeded its scope of authority by modifying Congress's
definition of what constitutes a Controlled Substance Offense when they added the included crimi
in the Commentary without the authorization of Congress.
A. THE ROLE OF THE SENTENCING COMMISSION
Congress created the Commission as as independent body, "charged with the task of establishing
sentencing policies and practices for the Federal Criminal Justice System." Stinson v. United
States, 508 U.S. 36, 40-41 (1993). The Commission fulfills its purpose by issuing the Guideline!
which provide direction to judges about the type and length of sentences to Impose in a given
case. Id. at 41. Although judges have some discretion to deviate from the Guidelines' recom­
mendations, our procedural rules " nevertheless impose a serious of requirements on sentencing
Court's that cabin the exercise of that discretion." Peugh v. United States, 569 U.S. 530,
543 (2013). A judge cannot stray from a defendants' Guidelines range, for example, without
first giving an adequate explanation for the variance. See id. The Commission thus exercises
a sizable piece " of the ultimate Government power, short of Capital punishment " -power to
take away someones liberty. United States v. Winstead, 890 F.3d 1082, 1092 (D.C. Cir. 2018).
That power is ordinarily left to two branches of Government-first to the legislature, which
creates a range of statutory penalties for each Federal crime, and then to judges, who sentence
defendant's within the statutory framework. But the Commission falls squarely in neither the
legislative nor the judicial branch; rather, it is " an unusual hybrid in structure and author­
ity, " entailing elements of both quasi-legislative and quasi-judicial power. Mistretta v.
United States, 488 U.S. 361, 412 (1989). In Mistretta, the Supreme Court explained how the
Commission functions in this dual role without disrupting the balance of authority in our
Constitutional structure. Although the Commission is nominally a part of the judicial branch,
it remains " fully accountable to Congress," which reviews each guideline before it takes
effect. Id. at 394; See also 28 U.S.C.S § 994(p). The rulemaking of the Commission, moreover,
" is subject to the notice and comment requirements of the Administrative Procedure Act."
(2)

Id. at 394; See also 28 U.S.C.S § 994(x). These constraints-Congressional review and notice
and comment-stand to safeguard the Commission from uniting legislative and judicial authority
in violation of the separation of powers. Unlike the Guidelines themselves, however, Commentary
to the Guidelines never passes through the gauntlets of Congressional review or notice and
comment. That is not a problem, the Supreme Court tells us, because Commentary has no indepen­
dent legal force-it serves, only to interpret the Guidelines1 text, not to replace or modify
it. See Stinson, 508 U.S. at 44-46; See also United States v. Rollins, 836 F.3d 737, 742
(7th cir. 2016)(en banc)(The application notes are interpretations of, not additions to the
Guidelines themselves...). Commentary binds Court's only " if the Guidelines which the
Commentary interprets will bear the construction."
B. AN UNLAWFUL SENTENCE IS AN EXTRAORDINARY CAUSE
FOR MANDAMUS RELIEF
A " Demanding Standard " must he satisfied before this Honorable Court of Appeal's will
exercise its jurisdiction under 28 U.S.C.S § 1651 and issue a Writ of Mandamus: it is clear
that only exceptional circumstances amounting to a judicial " Usurpation of Power " will
justify the invocation of this extraordinary remedy. And that a party seeking mandamus has
the burden of showing that its right to issuance of the writ is clear and indisputable. The
challenging of a District Judge's power to impose the sentence, is an issue of Judicial Power,
that has long been recognized as falling squarely within the narrow range of cases for which
mandamus is appropriate. See Ex parte United States, 242 U.S. 27, 39-40, 37 S. Ct. 72, 61
L. Ed.- 129 (1966); " All the Judicial Power of the Federal District Court's and of the judges
thereof must be traced to Acts of Congress passed pursuant to the Constitution."
CONCLUSION
Therefore, Petitioner contends that it is clear and undisputable, that the Sentencing Commissio:
exceeded its scope of authority by modifying the 4B1.2(b) through the Commentary. That mislead
the District Court* into thinkin that the Commentary had legal force, causing a " Usurpation
of Powers

Secondly, the District judge was under the false perception that the Commentary

adding the offenses of conspiracy, aiding and abetting, and attempt had legal force to invoke
Petitioner's Career Offender Enhancement, causing a " Usurpation of Powers."
(3)

Additionally, Petitioner cannot meet the requirements under § 2255(h), to request for
permission from the Court of Appeal's to file a second § 2255 motion, and his first
§ 2255 motion was denied on or about July 12th, 2012. Petitioner cannot meet the § 2255(e)
gateway to file a § 2241 because he was not sentenced pre-Booker. This Writ of Mandamus
is the correct remedy to correct the " Usurpation of Powers " demonstrated by the District
Judge. Wherefore, the Petitioner prays that this Honorable Court of Appeal's grants this
Petition for Writ of Mandamus, and sets forth Order issuing Writ directing the District
Court to Vacate his sentence and re-sentence him without the Career Offender Enhancement.
Respectfully Submitted,

t

STARKS JR. # 17006-026
ASHLAND' FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX - 6001
ASHLAND, KY. 41105-6001
CERTIFICATE OF SERVICE
I declare under the penalty of perjury (1746), that the foregoing is true and correct to
the best of knowledge, and that a copy of this Writ of Mandamus was sent to following parties:
CENTRAL DISTRICT OF ILLINOIS
CHIEF JUSTICE
UNITED STATES DISTRICT COURT
151 U.S. COURTHOUSE
600 EAST MONROE ST.
SPRINGFIELD, IL. 62701
TIMOTHY A. BASS
UNITED STATES ATTORNEY.
318 SOUTH SIXTH STREET
SPRINGFIELD, IL. 62701-1806
DATED:

1

202O

(4)

APPENDIX :A-3

i

RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0117p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Untted States of America,
Plaintiff-Appellee,
No. 17-5772
v.
Jeffery Havis,
Defendant-Appellant.

Appeal from the United States District Court
for the Eastern District of Tennessee of Chattanooga.
No. l:16-cr-00121-l—Travis R. McDonough, District Judge.
Decided and Filed: June 6, 2019
BEFORE: COLE, Chief Judge; DAUGHTREY, MOORE, CLAY, GIBBONS, SUTTON,
GRIFFIN, KETHLEDGE, WHITE, STRANCH, DONALD, THAPAR, BUSH, LARSEN,
NALBANDIAN, READLER and MURPHY, Circuit Judges.

COUNSEL
ON PETITION FOR REHEARING EN BANC AND REPLY: Jennifer Niles Coffin,
FEDERAL DEFENDER SERVICES OF EASTERN TENNESSEE, INC., Knoxville, Tennessee,
for Appellant. ON RESPONSE IN OPPOSITION: Luke A. McLaurin, William A. Roach, Jr.,
UNITED STATES ATTORNEY’S OFFICE, Knoxville, Tennessee, for Appellee. ON BRIEF:
Caleb Kruckenberg, NEW CIVIL LIBERTIES ALLIANCE, Washington, D.C., for Amicus
Curiae.

OPINION

PER CURIAM.

Although it is neither a legislature nor a court, the United States

Sentencing Commission plays a major role in criminal sentencing. But Congress has placed

No. 17-5772

United States v. Havis

Page 2

careful limits on the way the Commission exercises that power. Jeffery Havis argues that the
Commission stepped beyond those limits here and, as a result, he deserves to be resentenced.
We agree and REVERSE the decision of the district court.
I. BACKGROUND
In 2017, Havis pled guilty to being a felon in possession of a firearm. See 18 U.S.C.
§ 922(g)(1). Under the Sentencing Guidelines, a person convicted under § 922(g)(1) starts with
a base offense level of 14; but that level increases to 20 if the defendant has a prior conviction
for a “controlled substance offense.” See USSG §§ 2K2.1(a)(4), (a)(6). At sentencing, the
district court decided that Havis’s 17-year-old Tennessee conviction for selling and/or delivering
cocaine was a controlled substance offense under the Guidelines. Havis objected because the
Tennessee statute at issue criminalizes both the “sale” and “delivery” of cocaine, and his
charging documents did not specify whether his conviction was for sale, delivery, or both. See
Tenn. Code Ann. § 39-17-417(a)(2)-(3). Under Tennessee law, “delivery” of drugs means “the
actual, constructive, or attempted transfer from one person to another of a controlled substance.”
Id. § 39-17-402(6) (emphasis added). Havis therefore argued that his Tennessee conviction was
not a controlled substance offense because it encompassed the mere attempt to sell cocaine, and
the Guidelines’ definition of “controlled substance offense” does not include attempt crimes. See
USSG § 4Bl.2(b).1 The district court overruled Havis’s objection because an unpublished case
of this circuit, United States v. Alexander, held that any violation of § 39-17-417 is a controlled
substance offense. 686 F. App’x 326, 327-28 (6th Cir. 2017) (per curiam). In combination with
other adjustments, that left Havis with a Guidelines range of 46 to 57 months. The district court
sentenced him to 46 months, and he appealed.

1 A “controlled

substance offense” under § 4B 1.2(b) means:

an offense under federal or state law, punishable by imprisonment for a term exceeding one year,
that prohibits the manufacture, import, export, distribution, or dispensing of a controlled substance
(or a counterfeit substance) or the possession of a controlled substance (or a counterfeit substance)
with intent to manufacture, import, export, distribute, or dispense.

No. 17-5772

United States v. Havis

Page 3

A panel of this court affirmed Havis’s sentence for one reason: our decision in United
States v. Evans held that the definition of “controlled substance offense” in § 4B 1.2(b) includes
attempt crimes. United States v. Havis, 907 F.3d 439,442 (6th Cir. 2018) (citing United States v.
Evans, 699 F.3d 858, 866-67 (6th Cir. 2012)).

The Evans court relied on the Sentencing

Commission’s commentary to § 4B 1.2(b), which states that a controlled substance offense
“includes ‘the offenses of aiding and abetting, conspiring, and attempting to commit such
offenses.’” Id. at 866 (quoting USSG § 4B 1.2(b) comment (n.l)). But Havis objects to this
commentary on a ground never raised by the parties in Evans: he argues that the Guidelines’ text
says nothing about attempt, and the Sentencing Commission has no power to add attempt crimes
to the list of offenses in § 461.2(b) through commentary. We granted en banc review to address
that narrow claim.2
n. ANALYSIS
A. Legal Framework
Whether a prior conviction counts as a predicate offense under the Guidelines is a
question of law subject to de novo review. United States v. Wynn, 579 F.3d 567, 570 (6th Cir.
2009). Employing the categorical approach, we do not consider the actual conduct that led to
Havis’s conviction under the Tennessee statute at issue; instead, we look to the least of the acts
criminalized by the elements of that statute. Moncrieffe v. Holder, 569 U.S. 184, 190-91 (2013).
If the least culpable conduct falls within the Guidelines’ definition of “controlled substance
offense,” then the statute categorically qualifies as a controlled substance offense. But if the
least culpable conduct falls outside that definition, then the statute is too broad to qualify, and the
district court erred by increasing Havis’s offense level.
The parties agree that the least culpable conduct covered by § 39-17-417 is the attempted
delivery of a controlled substance. See Tenn. Code Ann. § 39-17-402(6). The question before
the court, then, is whether the definition of “controlled substance offense” in § 4B 1.2(b) includes
attempt crimes. The Sentencing Commission said it does in the commentary to § 4B 1.2(b). See
2The panel decision addressed (and rejected) a number of alternative grounds for finding that Havis’s
Tennessee conviction did not qualify as a controlled substance offense. See Havis, 907 F.3d at 444-47. Havis does
not revisit those claims in his en banc petition.

No. 17-5772

United States v. Havis

Page 4

USSG §4B 1.2(b) comment (n.l). But the plain language of §4B 1.2(b) says nothing about
attempt crimes. On appeal, Havis maintains that we must look to the actual text of Guideline
§ 4B1.2(b). The Government asks us to defer to the Commission’s commentary.
B. Role of the Sentencing Commission
To decide which construction of §4B 1.2(b) prevails, we begin with the Sentencing
Commission and its role in our constitutional system. Congress created the Commission as an
independent body “charged [] with the task of establishing] sentencing policies and practices for
the Federal criminal justice system.” Stinson v. United States, 508 U.S. 36, 4CM-1 (1993)
(citation and internal quotation marks omitted). The Commission fulfills its purpose by issuing
the Guidelines, which provide direction to judges about the type and length of sentences to
impose in a given case. Id. at 41. Although judges have some discretion to deviate from the
Guidelines’ recommendations, our procedural rules “nevertheless impose a series of
requirements on sentencing courts that cabin the exercise of that discretion.” Peugh v. United
States, 569 U.S. 530, 543 (2013). A judge cannot stray from a defendant’s Guidelines range, for
example, without first giving an adequate explanation for the variance. See id. The Commission
thus exercises a sizable piece “of the ultimate governmental power, short of capital
punishment”—the power to take away someone’s liberty. United States v. Winstead, 890 F.3d
1082, 1092 (D.C. Cir. 2018) (citation omitted), j
That power is ordinarily left to two branches of government—first to the legislature,
which creates a range of statutory penalties for each federal crime, and then to judges, who
sentence defendants within the statutory framework. But the Commission falls squarely in
neither the legislative nor the judicial branch; rather, it is “an unusual hybrid in structure and
authority,” entailing elements of both quasi-legislative and quasi-judicial power. Mistretta v.
United States, 488 U.S. 361, 412 (1989). In Mistretta, the Supreme Court explained how the
Commission functions in this dual role without disrupting the balance of authority in our
constitutional structure. Although the Commission is nominally a part of the judicial branch, it
remains “fully accountable to Congress,” which reviews each guideline before it takes effect. Id.
at 393-94; see also 28 U.S.C. § 994(p). The rulemaking of the Commission, moreover, “is
subject to the notice and comment requirements of the Administrative Procedure Act.” Id. at

No. 17-5772

United States v. Havis

Page 5

394; see also 28 U.S.C. § 994(x). These two constraints—congressional review and notice and
comment—stand to safeguard the Commission from uniting legislative and judicial authority in
violation of the separation of powers.
Unlike the Guidelines themselves, however, commentary to the Guidelines never passes
through the gauntlets of congressional review or notice and comment.

That is also not a

problem, the Supreme Court tells us, because commentary has no independent legal force—it
serves only to interpret the Guidelines’ text, not to replace or modify it. See Stinson, 508 U.S. at
44-46; see also United States v. Rollins, 836 F.3d 737, 742 (7th Cir. 2016) (en banc) (“[T]he
application notes are interpretations of, not additions to, the Guidelines themselves . . . .”).
Commentary binds courts only “if the guideline which the commentary interprets will bear the
construction.” Stinson, 508 U.S. at 46. Thus, we need not accept an interpretation that is
“plainly erroneous or inconsistent with the” corresponding guideline. Id. at 45 (citation omitted).
C. Defining “Controlled Substance Offense”
The Government urges us to find that the commentary at issue here—Application Note 1
to §4B1.2, which adds attempt crimes to the list of controlled substance offenses under
§ 4B 1.2(b)—is not a “plainly erroneous” interpretation of the corresponding guideline.3 But the
Government sidesteps a threshold question: is this really an “interpretation” at all? The guideline
expressly names the crimes that qualify as controlled substance offenses under § 2K2.1(a)(4);
none are attempt crimes. And the Commission knows how to include attempt crimes when it
wants to—in subsection (a) of the same guideline, for example, the Commission defines “crime
of violence” as including offenses that have “as an element the use, attempted use, or threatened
use of physical force against the person of another.” USSG § 4B 1.2(a) (emphasis added).

3The Government argues in the alternative that the real commentary at issue is Application Note 1 to
§ 2K2.1, which cross-references the definition of “controlled substance offense” in Application Note 1 to § 4B1.2.
The Government never made that argument in the district court or before the initial panel on appeal and arguably has
forfeited its right to do so now. At any rate, it makes no difference whether we begin with § 2K2.1 to determine the
meaning of “controlled substance offense.” The commentary to § 2K2.1 directs us to apply “the meaning given that
term in § 4B1.2(b) and Application Note 1 of the Commentary to § 4B1.2.” If anything, the Government’s proposed
definition—which would require us to defer to commentary on other commentary—would carry an even more
tenuous connection to the guideline’s text.

No. 17-5772

United States v. Havis

Page 6

To make attempt crimes a part of § 4B 1.2(b), the Commission did not interpret a term in
the guideline itself—no term in §4B 1.2(b) would bear that construction.4

Rather, the

Commission used Application Note 1 to add an offense not listed in the guideline.

But

application notes are to be ‘‘‘‘interpretations of, not additions to, the Guidelines themselves.”
Rollins, 836 F.3d at 742.

If that were not so, the institutional constraints that make the

Guidelines constitutional in the first place—congressional review and notice and comment—
would lose their meaning. See Winstead, 890 F.3d at 1092 (“If the Commission wishes to
expand the definition of ‘controlled substance offenses’ to include attempts, it may seek to
amend the language of the guidelines by submitting the change for congressional review.”). The
Commission’s use of commentary to add attempt crimes to the definition of “controlled
substance offense” deserves no deference. The text of § 4B 1.2(b) controls, and it makes clear
that attempt crimes do not qualify as controlled substance offenses.
in. CONCLUSION
The Guidelines’ definition of “controlled substance offense” does not include attempt
crimes. Because the least culpable conduct covered by § 39-17-417 is attempted delivery of a
controlled substance, the district court erred by using Havis’s Tennessee conviction as a basis for
increasing his offense level.

We therefore REVERSE the district court’s decision and

REMAND for further proceedings consistent with this opinion.

4The Government also suggests that the use of the term “prohibits” in § 4B 1.2(b) expands the scope of the
guideline to cover attempt crimes. Once again, the Government never made this argument in the district court or
before the initial panel on appeal. Regardless, the guideline’s boilerplate use of the term “prohibits” simply states
the obvious: criminal statutes proscribe conduct. See, e.g., Connally v. Gen. Constr. Co., 269 U.S. 385, 393 (1926)
”)
(“Penal statutes prohibit[] the doing of certain things, and providfe] a punishment for their violation
That does not help the Government.

<A

